U.S. Department of Justice

 

Office of the Solicitor General

 

Washington, D.C, 20530
October 4, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Maritime Life Caribbean Lid. v. United States, No. 19-61
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 9, 2019.
The government's response is now due, after one extension, on October 23, 2019. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 22, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously

assigned matters with proximate due dates.

‘Counsel for petitioner does not oppose this further extension.

Sincerely,

Noel J. Francisco
Solicitor General

ce: See Attached Service List
19-0061
MARITIME LIFE CARIBBEAN LIMITED
USA

MICHAEL A. POLLARD

BAKER, MCKENZIE

300 EAST RANDOLPH STREET

SUITE 5000

CHICAGO, IL 60601

312-861-8000
MICHAEL.POLLARD@BAKERMCKENZIE.COM.

WILLIAM V. ROPPOLO
BAKER, MCKENZIE

1111 BRICKELL AVENUE
SUITE 1700

MIAMI, FL 33131
305-789-8900
